No. ________
IN THE SUPREME COURT OF THE UNITED STATES

JOYDETH ROBINSON,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Joydeth Robinson, pursuant to Rule 39 and 18 U.S.C. ยง 3006A(d)(6),
asks leave to file the accompanying Petition for Writ of Certiorari to the United States
Court of Appeals for the Fifth Circuit without prepayment of costs and to proceed in
forma pauperis. Petitioner was represented by counsel appointed under the Criminal
Justice Act, 18 U.S.C. ยง 3006A(b) and (c), in the United States District Court for the
Northern District of Texas and on appeal to the United States Court of Appeals for the
Fifth Circuit.
Respectfully submitted this the 16th day of August, 2021.

JASON HAWKINS
Federal Public Defender
Northern District of Texas
TX State Bar No. 00759763
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886 Fax

/s/ Kevin Joel Page
KEVIN J. PAGE **
Assistant Federal Public Defender
Northern District of Texas
TX State Bar No. 24042691
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886

